AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

      GRANT ADMINISTERED BY THE 

EDUCATIONAL ADVANCEMENT ALLIANCE, INC. 

      PHILADELPHIA,PENNSYLVANIA 



        u.s. Department of Justice
      Office of the Inspector General
               Audit Division

       Audit Report GR-70-13-00S 

               May 2013 





      REDACTED - FOR PUBLIC RELEASE
                  AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

                        GRANT ADMINISTERED BY THE 

                  EDUCATIONAL ADVANCEMENT ALLIANCE, INC. 

                        PHILADELPHIA, PENNSYLVANIA


                                                     EXECUTIVE SUMMARY1


       The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Justice Programs (OJP),
Office of Juvenile Justice and Delinquency Prevention grant, number
2005-JG-FX-0259, including one supplement, awarded to the Educational
Advancement Alliance, Inc. (EAA).2 The congressionally-directed grant was
awarded to EAA, but the ultimate beneficiary of the funds was Philadelphia
College Opportunity Resources for Education (CORE).3 The total award for
the grant and supplement was $1,873,228. The objective of the grant was
to increase the access and retention of at-risk students to higher education
by providing direct student service counseling and aiming to improve the
systems.

      The objective of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also evaluated program performance to
determine whether the grant’s goals and objectives were met, as well as the
grant-funded program’s overall accomplishments.

      We determined that EAA was in material non-compliance with the
grant requirements we tested. Additionally, we found weaknesses in EAA’s
compliance with essential grant conditions. Specifically, we found that EAA:




                                                       
            The full version of this report contains information that may be protected by the
             1

Privacy Act of 1974, 5 U.S.C. §552(a) or may implicate the privacy rights of identified
individuals. Therefore, the Office of the Inspector General redacted portions of the full report
to create this public version of the report.
         
        2
             While EAA received, and this audit reviewed, a grant and its supplement from OJP,
we will be referring to both the award and its supplement throughout this report collectively
as “the grant”.
             3
         A congressionally directed grant is a grant that is specifically referenced in the
congressional report but not in the law and without a specific requestor cited. See House
Reports No. 108-576 and 109-118.



                                                              i
             	 charged unallowable costs to the grant, including an employee’s
                salary, consultant costs, and other grant expenditures, totaling
                $419,429;

             	 could not adequately support grant expenditures totaling $348,934;

             	 charged expenditures to the grant that exceeded the 10 percent
                budget rule totaling $46,348; and

             	 awarded sole-source contracts that were not approved by OJP for
                non-competitive procurement totaling $790,594.

      In addition to the questioned costs, we identified management
improvement findings related to internal controls, drawdowns, financial and
program reporting, budget management, and contractor monitoring.
Specifically, we determined that EAA did not adequately implement internal
controls in managing the grant and did not use actual expenditures as the
basis for reporting expenditures on its Financial Status Reports (FSRs) and
requests for drawdowns. Additionally, EAA did not submit its initial FSRs and
progress reports on time. We also found EAA did not stay within its
approved budget.4

      We discussed the results of our audit with EAA officials and have
included their comments in the report, as applicable. Additionally, we
requested a response to our draft report from EAA and OJP, and their
responses are appended to this report as Appendix III and IV, respectively.
Our analysis of both responses, as well as a summary of actions necessary
to close the recommendations can be found in Appendix V of this report.




                                                       
             4
          During this audit, we identified certain issues requiring further investigation. We
referred those matters to the OIG’s Investigations Division, and put our audit on hold
pending such investigation. Subsequently, we were able to complete our audit and issue
this report.



                                                          ii
                                TABLE OF CONTENTS



INTRODUCTION .......................................................................1 


Office of Justice Programs ............................................................1

Office of Juvenile Justice and Delinquency Prevention .......................2

Educational Advancement Alliance, Inc...........................................2 

Philadelphia College Opportunity Resources for Education .................2 

Our Audit Approach .....................................................................3 

 
FINDINGS AND RECOMMENDATIONS........................................5 


Overview ..................................................................................5

Internal Control Environment .......................................................5

Grant Expenditures ....................................................................6

Drawdowns ............................................................................. .13

Reporting ............................................................................... .13

Budget Management and Control................................................. 15

Monitoring of Contractors ........................................................... 16

Program Performance and Accomplishments ................................. 17

Compliance with Other Grant Requirements .................................. 18

Conclusions .............................................................................. 18

Recommendations..................................................................... 18 

 
APPENDIX I - OBJECTIVES, SCOPE AND METHODOLOGY......... 20 

 
APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS .... 22 


APPENDIX III - EDUCATIONAL ADVANCEMENT ALLIANCE 

    RESPONSE TO THE DRAFT AUDIT REPORT ...................... 23 

 
APPENDIX IV - OFFICE OF JUSTICE PROGRAMS RESPONSE 

    TO THE DRAFT AUDIT REPORT ....................................... 29 

 
APPENDIX V - OFFICE OF THE INSPECTOR GENERAL
    ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
    TO CLOSE THE REPORT................................................... 33 

 
 
                                   INTRODUCTION
      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Justice Programs (OJP),
Office of Juvenile Justice and Delinquency Prevention, grant
2005-JG-FX-0259, including one supplement, awarded to Educational
Advancement Alliance, Inc. (EAA). This congressionally-directed grant was
awarded to EAA, but the actual beneficiary of the funds was the Philadelphia
College Opportunity Resources for Education (CORE).5 The total award for
the grant and supplement was $1,873,228, and was intended to fund
CORE's programs to increase the access and retention of at-risk students to
higher education. This was to be achieved by providing direct student
service counseling and aiming to improve the systems for addressing access
and retention of at-risk students.

      The purpose of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also evaluated the grant-funded program 's
overall program performance and accomplishments in meeting grant
objectives for the funded program. Our audit covered the period between
the start of the initial grant award in July 2005, and the end of fieldwork in
May 2008. As shown in the table below, EAA was awarded a total of
$1,873,228 to provide services to students pursuing secondary education.

                       Office of Justice Programs Grant to 

                     Educational Advancement Alliance, Inc. 



         Grant Award               Award              Award
                                                                      Award Amount
           Number                Start Date          End Date
       2005-JG-FX-0259            7/1/2005           6/30/2006            $     886000
        Supplement 1              7/1/2005           6/30/2007                  987228
             Total                                                        $ 1 873 228
       Source: OJP grant files

Office of Justice Programs

      The Office of Justice Programs (OJP), within the u.S. Department of
Justice, provides primary management and oversight of the grant we

       5 A congress ionally directed gra nt is a gra nt that is specifically referenced in the
congress ional report but not in the law and without a specific requestor cited. See House
Reports No. 108-576 and 109-118.


                                              - 1­
audited. According to its website, OJP assists federal, state, local, and tribal
justice systems by disseminating state-of-the art knowledge and practices
across America, and providing grants for the implementation of these crime
fighting strategies. OJP does not directly carry out law enforcement and
justice activities, but instead works in partnership with the justice
community to identify the most pressing crime-related challenges
confronting the justice system and to provide information, training,
coordination, and innovative strategies and approaches for addressing these
challenges.

Office of Juvenile Justice and Delinquency Prevention

       According to its website, OJP’s Office of Juvenile Justice and
Delinquency Prevention provides national leadership, coordination, and
resources to prevent and respond to juvenile delinquency and victimization.
The Office of Juvenile Justice and Delinquency Prevention works to
strengthen the nation's juvenile justice system, and supports prevention and
early intervention programs to make a difference for young people and their
communities.

Educational Advancement Alliance, Inc.

      According to its website, Educational Advancement Alliance, Inc. is an
educational non-profit organization founded in 1990. EAA was established to
provide programs designed to supplement and enrich the educational
environment and experiences of students in the School District of
Philadelphia. The organization works with institutions and individuals to
establish and meet goals and objectives for higher educational attainment.

      At the time of our audit, the Philadelphia College Opportunity
Resources for Education (CORE), discussed below, operated as an
organization outside of EAA. While EAA received and managed the grant
funds we audited for this program, CORE administered the scholarship
program being funded. This relationship, EAA being responsible for the
grant funds we audited while CORE defined how those funds were to be
used, is discussed further in the Overview and Internal Control Environment
sections of this report.

Philadelphia College Opportunity Resources for Education

      According to its website, CORE is a federal tax-exempt organization
designed to provide scholarships and college preparatory assistance to high
school students that reside in Philadelphia, and its programs were designed



                                      - 2 -

to unite communities around the goal of ensuring that all children have
access to college.

      CORE’s website states that the CORE Scholarships offered high school
seniors – whether from the public, private, charter, or parochial systems – in
Philadelphia an opportunity to attend select Pennsylvania colleges and
universities. From its inception to March 2011, CORE awarded over 16,000
Philadelphia students a total of more than $27 million dollars. The awarded
scholarship money originated from sources other than the Department of
Justice grant funds discussed in this report.

Our Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our report, we
applied the OJP Financial Guide as our primary criteria during our audit. The
OJP Financial Guide serves as a reference manual assisting award recipients
in their fiduciary responsibility to safeguard grant funds and ensure that
funds are used appropriately and within the terms and conditions of the
awards. We tested EAA’s:

  	 Internal control environment to determine whether the financial
     accounting system and related internal controls were adequate to
     safeguard grant funds and ensure compliance with the terms and
     conditions of the grant.

  	 Grant expenditures to determine whether the costs charged to the
     grant were allowable and supported and properly allocated.

  	 Drawdowns (requests for grant funding) to determine whether
     EAA’s requests for reimbursement or advances were adequately
     supported, and if EAA managed grant receipts in accordance with
     federal requirements.

  	 Reporting to determine whether the required Financial Status Reports
     and progress reports were filed on time and accurately reflected grant
     activity.

  	 Budget management and control to determine whether EAA
     adhered to the OJP-approved budget for expenditures of grant funds.

  	 Monitoring of contractors to determine whether EAA had taken 

     appropriate steps to ensure that contractors complied with grant 

     requirements. 



                                    - 3 -

  	 Program performance and accomplishments to determine whether
     EAA achieved grant objectives and to assess performance and grant
     accomplishments.

  	 Compliance with other grant requirements to determine whether
     EAA complied with the terms and conditions specified in the individual
     grant award documents.

     When applicable, we also test for compliance in the areas of program
income, matching funds, indirect costs, accountable property, and
monitoring subrecipients. For the grant, we determined that EAA generated
no program income, had no matching funds required, did not charge indirect
costs, did not obtain accountable property with grant funds, and had no
subrecipients.




                                    - 4 -

              FINDINGS AND RECOMMENDATIONS

    COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

     From our audit, we determined that EAA was in material non-
     compliance with grant requirements including: (1) weak internal
     controls; (2) grant expenditures that were unallowable because
     they were not in the approved budget or were not a permissible
     use of funds; (3) grant expenditures that were unsupported
     because of inadequate documentation; (4) grant funds drawn
     down on an advance basis and not calculated using actual grant
     expenditures; (5) weaknesses in grant reporting, including late
     financial status reports that were not calculated using actual
     grant expenditures and unsupported progress reports; (6) failure
     to monitor the budget; and (7) contractor payments that were
     unallowable because they were sole-sourced. As a result of
     these deficiencies, we questioned over $1.25 million received by
     EAA.

Overview

       In performing the audit of this congressionally-directed grant awarded
to EAA, we found that EAA received the grant funds but that an individual
working for CORE was responsible for all of the decisions regarding the grant
program except for the hiring of two consultants to perform grant-related
activities, which was performed by EAA. We also found that EAA maintained
some grant-related documentation, submitted required reports regarding the
grant, and performed administrative functions for the grant. However, EAA
told us it considered CORE responsible for making the decisions on how to
expend the grant funds and expected CORE to ensure that the terms and
conditions of the grant were met.

     These issues are discussed in greater detail in the body of this report.

Internal Control Environment

      We began this audit by reviewing EAA’s: accounting and financial
management system, relevant grant-related policies and procedures, and
Single Audit Report to assess EAA’s risk of non-compliance with laws,
regulations, guidelines, and the terms and conditions of the grant. We also
interviewed management staff from EAA, observed accounting activities, and
attempted to perform transaction testing to further assess risk.




                                    - 5 -

      In accepting this grant, EAA was required to exercise effective control
and accountability for all grant funding. Specifically, the OJP Financial Guide
requires grantees to have an accounting system and related internal controls
to adequately safeguard grant funding and assure that it is used solely for
authorized purposes. According to an EAA official, EAA has an effective
system of internal controls; however, we determined EAA did not implement
these controls when administering the grant. Instead, EAA held grant
funding in its bank account and disbursed funds at the request of the CORE
Executive Director. EAA did not receive any grant funds for the
administration of the grant.

       An EAA official stated that CORE was allowed to circumvent EAA’s
internal controls because EAA viewed the grant as CORE’s responsibility and
EAA was asked to accept the grant on behalf of CORE by the Congressional
office that provided the earmark. In addition, the EAA Board of Directors
made no decisions with regard to the grant, but instead was only aware of
administrative issues with the grant.

       We determined that EAA’s accounting and financial management
policies and procedures used to document and account for the expenditure
of grant funds were not adequately implemented, as explained in more detail
in our transaction testing. Further, grant funding requests in the form of
drawdowns were not calculated using actual grant expenditures. As a result,
EAA’s existing system of internal controls was inadequate to safeguard,
document, and properly account for grant funds.

Single Audit

      According to the Office of Management and Budget (OMB) Circular
A-133, EAA was required to engage independent auditors to perform an
annual single audit. The due date for the Single Audit Report was no later
than nine months after the end of EAA’s fiscal year, and EAA’s fiscal year
runs from July 1 through June 30, so the Single Audit would be due no later
than March 31 of the following year. We reviewed the Single Audit for the
year ending June 30, 2006, Single Audit Report that was issued January 28,
2008, or approximately 10 months late. The Single Audit Report contained
no findings and, as a result, we did not examine the resolution of any
recommendations within the report. No further single audits were
performed for EAA that covered the grant period.

Grant Expenditures

      Grant funds used to pay for CORE expenditures consisted of payments
for personnel, fringe benefits, consultants, events, supplies, food for


                                     - 6 -

training/conferences, travel, and other various costs. We found these
charges totaling $419,429 included unallowable costs under the grant,
including one employee’s salary, various direct costs, and consultant
payments. Additionally, EAA could not adequately support other grant
expenditures totaling an additional $348,934. These findings are detailed
below.

Personnel and Fringe Benefits

      According to EAA’s accounting records, $297,462 was spent on
employee salaries and $48,862 on fringe benefits. We selected three
nonconsecutive pay periods for detailed testing to determine if salaries and
fringe benefit charges were adequately supported and allowable. For the
three selected pay periods, we found that the salary and fringe benefit
charges paid to the grant-funded employees were allowable and adequately
supported.

       The grant budgets specifically listed approved positions and the
salaries associated with those positions. In reviewing the actual salary
documentation for the approved positions, we found that the Director of
Campus Outreach was paid $95,000 per year, which was $55,000 per year
over the approved budgeted salary of $40,000. Because there was no
request or approval for the salary increase for the position, we question
$78,269, the total amount paid to the employee over and above the
approved budgeted amount, a significant deviation from the approved grant
budget. According to an EAA official, the CORE Executive Director hired the
employee in question, and EAA provided no oversight over the employee’s
activities. By not following the approved grant budget, this undermined
OJP’s ability to safeguard the proper use of grant funds.

Other Direct Costs

      EAA spent a total of $1,566,399, or 84 percent of the grant, in direct
costs, excluding personnel and benefits. We tested a judgmental sample of
grant expenditures reported in EAA’s accounting system to determine if the
expenditures were allowable and adequately supported. To determine if the
expenditures were allowable, we compared the expenditures to the grant
budget and permissible uses of funds outlined in the OJP Financial Guide. To
determine if the expenditures were supported, we reviewed accounting
system data and supporting documents such as invoices, receipts, and
timesheets.




                                    - 7 -

      Consultants

       EAA spent $387,841 for five consultants. However, the grant budget
approved by OJP only authorized hiring two consultants, and we found that
payments to only one of these two authorized consultants (the statistics
analyst) were supported. Further, we found that EAA, in its hiring process
for three of the five consultants, did not comply with the OJP financial guide,
which requires consultants to be hired through a competitive bidding
process. Also, in examining the compensation for the five consultants, we
were unable to determine whether four of the consultants were paid in
excess of the $450 per day rate established as the maximum per day rate by
the award documents. This was because EAA did not require the necessary
time and effort reports to support payments for these four consultants. In
addition, two of the five consultants received retainers, totaling $34,500,
which were not supported by adequate documentation of work completed.

      Consultant Authorization, Competition, and $450 per day maximum

        In order to determine whether or not payments made to the
consultants were included in the budget approved by OJP, we reviewed the
detailed budgets OJP requested and EAA submitted and found that the
budget for the grant included authorization for two consultants, including
$84,800 for a statistics analyst and $32,500 for an event planner. In
reviewing EAA grant records, however, we found that $87,246 was paid to
the statistics analyst and $38,375 was paid to the event planner.

      In addition, we found that EAA paid three other consultants with grant
funds. We found that these three unauthorized consultants received
payments of $137,750, $106,970, and $17,500 for a total of $262,220.
These three consultants were not included in the budgets approved by OJP.
We asked the Chief Executive Officer of EAA whether the budgets were
modified to include the additional consultants and whether such a
modification was approved by OJP. We were informed that no budget
modification was completed. Because they were not included in the
approved budget, we consider the $262,220 paid to these consultants as
unallowable costs.

      EAA hired three commercial consultants, which included two of the
unauthorized consultants, as well as the authorized event planner. These
commercial consultants were paid a total of $162,845. EAA was required to
hire commercial consultants through a competitive bidding process as stated




                                     - 8 -

in the OJP financial guide.6 We interviewed EAA and CORE personnel in
order to determine whether the consultants were hired through a
competitive bidding process. We were told that all five consultants were
sole-sourced and we found no evidence that they were hired through
competitive bidding or that they were approved by OJP for a sole source
acquisition. As a result, we consider the three commercial consultants paid
a total of $162,845 to be unallowable costs.

      Pursuant to the special conditions of the grant awards, consultant
rates that exceeded $450 per day needed prior approval by OJP. We
attempted to determine if consultants were paid in excess of $450 per day;
however, consultants were not paid per day and four of the five consultants’
hours were not tracked. As a result, we were unable to do any comparison
for four of the consultants and were, therefore, unable to determine whether
the consultant rates were allowable in accordance with grant award
conditions. However, all four of these consultant costs are already
questioned as unallowable because they were either not in the budget
submitted to OJP or not competitively bid.

      The remaining consultant (the statistics analyst) did provide monthly
reports to EAA tracking his hours and worked performed. This consultant
was paid $100 an hour, $43.75 over the allowable rate without OJP
approval. As a result, we are questioning $36,781 of the consultant
payments over the allowable $56.25 per hour rate.

      Therefore, we provided OJP with a recommendation to remedy
$337,376 in unallowable consultant costs, which includes $262,220 in
unauthorized costs for three of the consultants, $38,375 in compensation for
the authorized but sole-sourced event planner, and $36,781 for
compensation over the allowable rate for the authorized statistics analyst.

             Support for Consultants

       In order to determine if the independent consultant rates complied
with the special conditions outlined in the grant award, we reviewed
consultant invoices and corresponding reports. With the exception of the
statistics analyst, we found that time and effort reports were not maintained.
According to the OJP Financial Guide, “personnel and payroll records shall
include the time and attendance reports for all individuals reimbursed under

                                                       
             6
         The March 2005 OJP Financial Guide states “Consultants Employed by Commercial
and Not-For-Profit Organizations. These organizations are subject to competitive bidding
procedures.”
              


                                                          - 9 -

the award, whether they are employed full time or part time. Time and
effort reports are also required for consultants.” EAA did not require time
and effort reports for the consultants. As a result of this deficiency, we
consider the $300,595 paid to the consultants to be unsupported costs.

      When expenditures are unsupported and not properly authorized, it
greatly increases the risk of inappropriate and erroneous grant charges and
also potentially undermines the ability of the grantee to satisfactorily
accomplish its stated objectives. As a result of the deficiencies we found
with the expenditures made for the consultants, we are questioning
consultant expenses totaling $337,376 as unallowable and $300,595 as
unsupported.   
       
      One of the five unauthorized consultants was paid $9,500 monthly
(with the exception of one $4,750 payment) between October 2005 and
December 2006 for a total of $137,750. At the conclusion of our audit the
Executive Director of EAA told us that EAA had borrowed OJP grant funding
to pay this unauthorized consultant while it was awaiting funding from a
state grant. Although the Executive Director also told us EAA later
reimbursed the OJP grant for these consultant costs, none of the accounting
records we were provided indicated any reimbursement was made and no
direct repayment to OJP was made.

      Events

       As part of the grant, EAA hosted numerous events including sendoff
rallies and homecoming events. According to the progress reports submitted
for the project, sendoff rallies included activities to increase the awareness
and retention of CORE scholarship students as they prepared to enter
college, with several college orientation, retention, financial aid, academic
support, and college life seminars and workshops. Homecoming events were
held for scholarship recipients and their families and friends to give students
an opportunity to be with those who care about the Philadelphia region. The
grant-funded events are listed below.




                                    - 10 -
                         GRANT FUNDED EVENTS 


                    Event                        Date             Cost
      Send off to college rally - 2005       August 2005         $ 32,064
      Homecoming luncheon                    November 2005         30,817
      Send off to college rally - 2006       June 2006             37,652
      Outreach campaign                      October 2006          22,750
      Family and friends bowling bash        November 2006         15,560
      Stay in school rally                   November 2006         14,859
                                                         Total   $153,702
     Source. EAA

      In reviewing the costs associated with these events, we found that the
expenses included over $38,000 in contractor payments to coordinate four of
the events, $25,672 for sweatshirts to be provided to attendees, and other
costs including food, banners, photographers, and raffle prizes, with one
event providing $6,020 in product giveaways. According to an EAA official,
the events provided inspiration, motivation, and networking for CORE
scholarship recipients.

      According to the detailed budget OJP approved, these events were to
create an environment for continued networking among students and CORE,
cultivate relationships, and allow students to use CORE resources and
prepare for college. The detailed budget approved by OJP included expenses
for space, food, branding materials, which included CORE caps, t-shirts, and
other giveaways. According to EAA's detailed budget "the branding is
necessary to create and foster a relationship with students so that the
presence of CORE is very apparent during college recruitment and bolsters
and enhances a college-going community."

      Because the costs for these events, including the event planners and
giveaways, were approved in advance by OJP, we do not include these
expenses as questioned costs. EAA followed the budget for these program
events that was submitted to and approved by OJP. However, in our view,
OJP should be vigilant about approving such budget items in future grant
awards and to the extent it does so, it should oversee them vigorously.




                                    - 11 ­
     Travel. Supplies. and Other Costs

      In reviewing the supporting documents provided by EAA, we found
unallowable costs totaling $3,784. These costs included sales taxes, charges
that should not have been made to the grant, and a late charge.

      Specifically, we found that the grant was charged a total of $2,790 in
sales taxes. However, because EAA is a tax-exempt nonprofit organization,
and according to an EAA official, EAA had the necessary documentation
available to support their tax-exempt status, these charges should not have
been incurred by EAA or, having been incurred, should not have been
charged to the grant.

       EAA also charged $936 in expenditures that, during our audit, EAA
officials noted should not have been charged to the grant. These
expenditures included payments for temporary labor, duplicate payment for
lodging, and payments for office supplies, videography, and photography. A
$58 late charge for a credit card also was charged to the grant, and this
charge is not an allowable expense.

      In reviewing grant expenditures, EAA was unable to provide
documentation for $48,339 in expenditures charged to the grant. These
charges included supplies, meals, and other expenditures.

                    Unsupported Grant Expenditures

                                         Unsupported
                         Expense           Amount
                    Supplies                   $ 42 661
                    Labor                         3613
                    Meals                         1855
                    Storage - other                 210
                                 Total         $ 48 339
                       Source: EAA documents

      We found that EAA charged temporary labor to the grant, however,
the charges could not be supported by a time and effort report for the labor
as required by the OlP Financial Guide.

      Additionally, EM charged many meals to the grant. However, EAA
could not provide any documentation supporting the costs of the meals or,


                                   - 12 ­
for meals associated with meetings, EAA could not provide documentation to
show the costs are reasonable and necessary for the successful completion
of the project.

     Finally, EAA charged the grant for two webcams that according to a
CORE official were never purchased.

Drawdowns

      EAA requested grant funds through 20 separate drawdowns, or
funding requests, totaling $1,873,228. To calculate the drawdowns, EAA’s
Chief Executive Officer stated that she estimated grant-related expenditures
using expenditure information when possible. We compared the drawdown
amounts to the accounting records (EAA expenses) and we were unable to
match the accounting records to the drawdown amounts because EAA did
not use actual expenditures to calculate the drawdown amounts. However,
we found that, by the conclusion of the grant, EAA had expenditures in its
accounting records to cover the amount drawn down.

      In addition, we determined EAA drew down funds in advance of
expenditures made for the grant program. When we spoke to the EAA Chief
Executive Officer, she agreed that she drew down funds on an advance
basis. According to the OJP Financial Guide, “recipient organizations should
request funds based upon immediate disbursement/reimbursement
requirements. Recipients should time their drawdown requests to ensure
that Federal cash on hand is the minimum needed for
disbursements/reimbursements to be made immediately or within 10 days.”
We sought to determine whether EAA violated cash management rules by
holding cash for more than 10 days. We compared the drawdowns to EAA’s
accounting records, however, we were not able to quantify the full extent of
this problem because the records did not allow a complete tracking of the
funds as they were disbursed. Although we do not question underlying costs
due to EAA’s drawdown of funds in advance, we recommend that EAA
establish and adhere to procedures that ensure that any advances or grant
funding are spent on grant activities within 10 days or returned to OJP.

Reporting

Financial Status Reports

      The financial aspects of OJP grants were, at all times relevant to this
audit, monitored by OJP through EAA’s submission of Financial Status




                                    - 13 -
Reports (FSRs).7 As noted below, the OJP Financial Guide required that
FSRs be submitted within 45 days of the end of the most recent quarterly
reporting period, and the final report was to be submitted no later than 90
days following the end of the grant period. Funds or future awards may be
withheld if reports are not submitted or are excessively late.

      Between July 2005 and July 2007, EAA submitted all eight of the
required FSRs for the grant. We reviewed the submitted reports for
accuracy and timeliness. We found that five of the eight FSRs were
submitted from 11 to 44 days late. EAA had no explanation for submitting
the reports late.

      Because EAA submitted the FSRs late, OJP’s ability to evaluate the
financial aspects of the ongoing grant program on a timely basis was
compromised.

      According to the OJP Financial Guide, the FSRs were supposed to
contain the actual expenditures for the current reporting period and reflect
cumulative expenditures for the entire award period. EAA officials stated
that they partly estimated grant expenses to calculate the FSR amounts. In
addition, the EAA official stated there were system technical difficulties. We
compared the FSRs to the accounting records (EAA expenses) and we were
unable to match the FSR amounts to the accounting records. We then
compared the total amount on all FSRs to the totals on EAA accounting
records. The total amount of expenditures recorded in the accounting
records exceeded the amount on the FSRs. As a result, we recommend EAA
ensures future Federal Financial Reports are accurate.

Progress Reports

             OJP requires grantees to complete and submit progress reports as a
means to monitor their performance. Progress reports are submitted to
describe grant activities and accomplishments toward achieving the
objectives contained in the approved award application. According to the
OJP Financial Guide, progress reports are to be submitted within 30 days
after the end of the reporting periods, which are June 30 and December 31.
EAA submitted the four required progress reports to OJP. We requested, but
were not provided with supporting documentation to verify the information
provided in the progress reports.
                                                       
       7
         Effective for the quarter beginning October 1, 2009, grant recipients must report
expenditures online using the Federal Financial Report (FFR-425). Prior to October 1, 2009,
the financial reports were called Financial Status Reports (FSRs) and had to be submitted
within 45 days of the end of the most recent quarterly reporting period. For this report all
expenditure reports are FSRs because they were submitted prior to October 1, 2009.


                                          - 14 -
      Between July 2005 and June 2007, EAA submitted four progress
reports. According to OJP’s Grant Management System (GMS), all four
progress reports were submitted from 70 to 312 days late. An EAA official
stated the first progress report was submitted late because EAA was new to
the process and had difficulties. After that, all subsequent ones were
submitted on time. However, because of a glitch in the GMS, one report was
lost and marked as late, and all progress reports after that were
automatically marked as late. An OJP official acknowledged the EAA official
and she were in contact to remedy the issue. As a result, we recommend
that OJP work with EAA to correct the GMS issue and prevent future reports
from being marked as late.

Budget Management and Control

      OJP approved a detailed budget for the grant. The OJP Financial Guide
requires that grant recipients spend grant funding according to defined
budget categories, or request approval prior to reprogramming funds if
actual spending exceeds certain limits. However, EAA did not track
expenditures in accordance with approved budget categories, as required.

      Grant recipients are required to abide by the OJP “10 percent rule,”
which requires written agency approval for movement of grant dollars
among approved budget categories if the cumulative change is greater than
10 percent of the total award amount. Although EAA did not track its
expenditures in accordance with these budget categories, in order to assess
its compliance with this requirement we performed in-depth analysis of the
expenditures and summed amounts expended in each category. The
following table represents the results of that analysis.




                                   - 15 -
                      OlP Approved Grant Budgets to EAA

       OlP Grant                                                Under-            Over-
   Budget Ca tegory            Budget           Actua l         budget           budget
   Personnel               $    375,000     $      297,462      $ (77,538)                $0
   Fringe Benefits              123,008              48,862       (74, 146)                0
   Travel                        16,912              13,723        (3,189)                 0
   Equipment                          0                    0              0                0
   Supp lies                    279,116            200,3 18       (78,798)                 0
   Contractual                  885,120         1, 14 1,33 7              0         256,2 17
   Other                        194,072            2 11 ,02 1             0          16,949

   Total                    $ 1,873,228     $ 1,9 12,723        $(233,671)       $ 273,166

       Less allowab le 10% transfers of tota l project costs                        187,323

       Less direct expenditures exceeding grantS                                     39,495

   Unal lowable transfers exceeding 10% of tota l project costs                   $46,348
       Source. DIG Ana lysIs of OJP Grant Award docu m ent s and EAA Accounting Records

         We compared t he budgeted amou nts f rom the approved fina ncial
clearance memorand u ms to actua l expenditures from t he grant transactions .
We determined EM d id not ad here to t he approved budget. An EM offi cial
sta t ed EAA d id not t rack bu dget verses act ual amounts to ensure complia nce
wi t h t he approved budget. In add ition , EAA did not req uest the necessary
approval from OJP to reprogram fu nds which exceeded the 10 percent
t h reshold .

       When gra ntees do not adhere to the approved budget , effective gra nt
management is pot ential ly undermined an d the ability t o adeq uately
sa feguard gra nt fu nds is comprom ised . We q uestion $4 6,348 in cost s that
exceeded t he 10 percent rule.

Monitoring of Contractors

      Accord ing t o t he OJP Financial Gu ide, as the d irect grant recipient, EAA
was respons ible for moni t ori ng t he co ntractors to ensure t hey perform ed in a


       8 To complet e our budget compliance test s and calcu late questioned costs, we

reduced t ot al actua l cost s by $39,495 to account for t he fund ing of expend itures from
sources ot her t han the OJP grant. Because EAA cou ld not ident ify those indiv idua l
expendit ures funded w ith OJP funding , it was not poss ible to adjust the actua l amounts of
any budget cost cat egory .


                                            - 16 ­
manner that would ensure compliance with their overall financial
management requirements. EAA was responsible for all aspects of the
program including proper accounting and financial recordkeeping of all
expenditures, including grant funds provided to contractors.

       EAA paid two contractors a total of $790,594. One contractor
administered the scholarships to the students and the other tracked students
after they received the CORE scholarships. We found EAA did not properly
monitor the contractors. According to EAA officials, EAA had no procedures
or policies addressing the ongoing monitoring of the contractors. EAA did
not evaluate the contractors' financial management system, processes and
procedures for administering the contract, adherence to the terms and
conditions of the grant, or key internal controls. The CORE Executive
Director stated he worked closely with the contractors on a daily or weekly
basis, but was unable to provide any documentation of the monitoring.
According to a CORE official, final reports from the contractors were the only
documentation of monitoring. An EAA official stated the CORE Executive
Director insisted he was the go-between and no one else had contact with
the contractors. We believe that the potential for fraud, abuse, and wasteful
spending of grant funds were significant due to EAA’s lack of monitoring and
oversight.

       According to the OJP Financial Guide, all procurement transactions,
whether negotiated or competitively bid and without regard to dollar value,
shall be conducted in a manner so as to provide maximum open and free
competition. All sole-source procurements in excess of $100,000 must
receive prior approval of the awarding agency. According to EAA officials,
the contractors were sole-sourced and EAA did not receive prior approval
from OJP. In addition, EAA did not provide us with adequate justification for
the sole-source procurement. Because EAA did not receive prior approval
from OJP for the sole-source procurement, we question the funds distributed
to the contractors totaling $790,594.

Program Performance and Accomplishments

      The primary CORE Scholarship Program goal was to award as many
CORE Scholarships to qualified youth as possible. In the final progress
report submitted by EAA to OJP, EAA said that it had accomplished this goal.
Additionally, EAA represented that it established a formal network of Direct
Service Prevention Providers that focus on stay in school, post-secondary
preparation and completion programs, high schools, and programs that
service pre-college and college age at risk youth. We found no evidence
during our audit that contradicted EAA’s contention that it fulfilled its grant
objectives.


                                    - 17 -
Compliance with Other Grant Requirements

      In addition to the general grant requirements, we tested for
compliance with terms and conditions specified in the grant award
documents. The grant awards contained 16 special conditions. We found
that EAA complied with the special conditions we tested except for the
findings previously reported.

Conclusions

       EAA did not fully comply with the grant requirements we tested. We
found material weaknesses in EAA’s internal controls, expenditures,
drawdowns, FSRs, progress reports, budget, and contractors that raised
significant questions about its compliance with the grant requirements.

      We found that EAA charged $78,269 to the grant for a salary that was
unallowable. We found that EAA charged direct costs of $341,160 to the
grant for unallowable expenditures, and an additional $348,934 to the grant
that could not be adequately supported.

      We found EAA could not support the amounts listed as drawdowns or
reported on the Financial Status Reports. We found that EAA did not have
procedures in place to ensure the timely submission of Financial Status
Reports. EAA did not spend the grant funds according to the OJP approved
budget and charged $46,348 in grant expenditures exceeding the 10 percent
budget rule.

      Lastly, we questioned $790,594 due to unapproved sole-source
contracting practices.

Recommendations

     We recommend that OJP:

     1. Ensure EAA strengthens its internal controls over grant funds.

     2. Remedy $78,269 in unallowable employee salary.

     3. Remedy $337,376 in unallowable consultant expenditures, which
        includes $262,220 in unauthorized costs and $38,375 for the
        authorized but sole-sourced Event Planner. The amount also
        includes costs totaling $124,470 ($106,970 + 17,500) for two
        consultants who were unauthorized and unallowably hired without



                                   - 18 -
   competitive bidding and one consultant paid over $450 per day
   ($36,781).

4. Remedy $300,595 in unsupported consultant expenditures.

5. Remedy $3,784 in unallowable expenditures.

6. Remedy $48,339 in unsupported expenditures.

7. Ensure that EAA requests grant funds based on immediate
   disbursement/reimbursement of actual grant expenditures.

8. Ensure that EAA implements and adheres to procedures that will
   result in the timely submission of Federal Financial Reports.

9. Ensure that EAA implements procedures to ensure that expenses
   reported on future Federal Financial Reports are based on actual
   expenditures for the reporting period.

10.Ensure that EAA implements and adheres to procedures that will
   result in submission of supported progress reports in a timely
   fashion.

11.Ensure that EAA implements and adheres to procedures to track
   expenditures by budget categories and to monitor budget versus
   actual spending on a consistent and ongoing basis to ensure EAA
   spends grant funds according to the defined budget categories.

12.Remedy $46,348 in costs that exceeded the 10 percent budget rule.

13.Ensure that EAA implements procedures to properly monitor
   contractors.

14.Remedy the $790,594 in contractor payments for sole-sourced
   contracts that were not approved by OJP to be procured non-
   competitively. 




                             - 19 -
                                                                              APPENDIX I 

 

                         OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. We also assessed grantee program performance in
meeting grant objectives and overall accomplishments. The objective of our
audit was to review activities in the following areas: (1) internal control
environment, (2) grant expenditures, (3) drawdowns, (4) financial status
and progress reports, (5) budget management and control, (6) monitoring
contractors, (7) program performance and accomplishments, and
(8) compliance with other grant requirements. We determined that
matching costs, indirect costs, program income, accountable property, and
monitoring of subrecipients were not applicable to the grant.

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provided a
reasonable basis for our findings and conclusions based on our audit
objectives.

      In conducting our audit, we used sample testing while testing grant
expenditures. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grant reviewed, such as
high dollar amounts or expenditure category based on the approved grant
budget. We tested $310,798 in grant expenditures reported in EAA’s
accounting system. This non-statistical sample design does not allow for the
projection of the test results to the universes from which the samples were
selected.

     We audited the Office of Justice Programs Grant Number
2005-JG-FX-0259, including one supplement. The grantee had a total of
$1,873,228 in requests for grant funding through July 2007. Our audit
concentrated on, but was not limited to, the award of the grant in
September 2005, through the end of field work in May 2008.9
 


                                                       
             9
          During this audit, we identified certain issues requiring further investigation. We
referred those matters to the OIG’s Investigations Division, and put our audit on hold
pending such investigation. Subsequently, we were able to complete our audit and issue
this report.  


                                                          - 20 -
      Although EAA was awarded and received $1,873,288 in grant funding
EAA’s accounting records reflected expenditures of $1,912,723. According
to EAA officials, the amount of expenditures in excess of grant funding,
$39,495, was paid with EAA’s own funding, unrelated to the OJP grant.
However, because EAA could not identify those individual expenditures
funded with OJP funding within the larger amount of expenditures, it was
necessary for us to treat all $1,912,723 in expenditures as OJP grant funded
for the purposes of our testing.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide and grant award documents.

      In addition, we reviewed the timeliness and accuracy of Financial
Status Reports and progress reports, evaluated actual program performance
and accomplishments to grant goals and objectives, and considered internal
control issues. However, we did not test the reliability of the grantee’s
financial management system as a whole.
                                       




                                   - 21 -
                                                                                APPENDIX II



                       SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS10:                                                AMOUNT           PAGE           


Unallowable Salary                                                 $      78,269     7


Unallowable Consultant Costs                                            337,376 
    9


Unsupported Consultant Costs                                            300,595      10 


Unallowable Expenditures                                                   3,784     12 


Unsupported Expenditures                                                  48,339     12 


Expenditures Exceeding 10 Percent Budget                                  46,348     16        

Rule 


Sole-Source Contractors                                                 790,594      17 


GROSS QUESTIONED COSTS                                                 1,605,305


LESS DUPLICATION11                                                      346,943      




NET QUESTIONED COSTS:                                              $1,258,362




                                                       
             10
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
             11
         Some costs were questioned as both unallowable and unsupported. Net
questioned costs exclude the duplicate amount.


                                                          - 22 -
                                                                                                       APPENDIX III 

 

              EDUCATIONAL ADVANCEMENT ALLIANCE, INC. 

                RESPONSE TO THE DRAFT AUDIT REPORT 



                                                       4548 MHrh t Streel, Suite LL04
                                                       Philadelphia, PA 19139
                                                       POOne 215.472.2500
                                                       F,,;'\c 215.472.2440
                                                       wwweaalliaoo: OOj!
         RAYMOND JONES, JR.                    DENISE WYNN-BAKER. MD                                 HOWARD BROWN
         Chairperson                           Vice Chairperson                                      Treasurer


         18 January 2013



         Thomas O . Puerzer
         Regional Audit Manager
         Philadelphia Regional Audit Office
         U.S. Department of Justice
         Office of the Inspector General
         Philadelphia Regional Audit Office
         701 Market Street, Suite 201
         Philadelphia, Pennsylvania 19106

         Dear Mr. Ptlerzer,


         The Educational Advancement Alliance ("EAA") has reviewed the draft report prepared by the U.S.
         Department of Justice Office of the Inspector General in connection with the audit of the Office of Justice
         Programs (OJP) Office of Juvenile Justice and Delinquency Prevenlion granl, number 2oo5-JG-FX-0259,
         including one supplement. EAA respectfully submits the enclosed responses to the findings and
         recorrmendalions. We are pleased that you found Ihat EAA complied wit h Ihe special conditions lesled for ,
         and more importantly, that no evidence existed to contradict the fact that we fulfilled Ihe grant objectiv es of
         awarding as many scholarships 10 qualified youth as possible. We appreciate Ihe value of Ihe audit process
         and look forward to w::lrking with you 10 continue our marked improvement of financia l management of
         future agency awards.



    l.   Background

         EAA received and administered $1.87 million in DOJ granl funds on behalf of the College Opportunity
         Resources for Education (CORE) for funding between June 2005 and July 2007. EM did not receive any
         compensation including administrative allowance or indirect cost for performing Ihese services. These funds
         were audited by the Office of the Inspector General (DIG) from 2008 through 2012 . The audit identified a
         number of alleged impermissible uses of Ihe funds , questionable payments 10 consultants, and alleged
         support for "political" evenls.

         The Audit Report alleges that certain sole source contracts were entered into at amounts, and for purposes
         not authorized by the grant. The following paragraphs and supporting documents are hereby submitted to
         not only respond to the Aud it Report , but also 10 provide a more nuanced accounting of the circumstances
         under which each contract was entered.

                                               Response to Recommendations

         Recommendation #1: We recommend that OJP ensure EAA strengthens its internal controls over grant
         funds.

                                                                  [II




                                                             - 23 -
 




    Management Response: The concern regarding historical differences involving a 2005 contract prior to the
    engagement of a highly dedicated and qualified management and administrative staff do not imply that a
    current control deficiency exists. Current system design and operations allow management or employees,
    in the normal course of performing their assigned functions, to prevent or detect misstatements on a timely
    basis. Therefore, this one historical difference does not fit the description of a current control deficiency and
    should not continue as a barrier to recognition of the improved control environment. The auditors' report did
    not contain findings suggesting current operational control deficiencies.

    Recommendation #2: We recommend that OJP remedy $78,269 in unaffowable employee salary.

    Management Response: We disagree with this recommendation . The grant provides for 2 Retention
    Officers@ $40,000 per. The decision was made that one individual could oversee the 14 campuses. As
    the positions were approved for 2 years with a budget of $160,000, the $135,192 .31 would nd exceed the
    approved bud~t of $160,000 for this line item.



    Recommendation #3: We recommend that OJP remedy $337,376 in unallowable consultant expenditures,
    which includes $262,220 in unauthorized costs and $38,375 for the authorized but sole-sourced Event
    Planner. The amount also includes costs totaling $124,470 ($106,970 + $17,500) for two consultants who
    were unauthorized and unallowably hired without competitive bidding and one ronsultant paid aver $450
    per day ($36,781).

     Management Response: We agree, in part, and disagree, in part, with this recommendation. In Fall of
     2005, I was contacted by Mr. Gregory Naylor, who 'NaS the District Director for Congressman Fattah at that
    time. He began the conversation with a brief overview of what the ultimate goal of CorePhilly was and how
     it was to be achieved. Mr. Naylor specifically talked about the creation of the endowment and how.
               III!!!I!!
    IIIIIIIIIIIIIIIII.... was identified as the individual who would oversee that project. He asked me to enter into
     a contract with him and that his salary was coming from a grant that                  had written for the
     Commonwealth of Pennsylvania. I was told what his compensation was to be however I was not told of the
    grant amount from the Commonwealth. The grant award is attached. Please note that the grant want
     backdated to begin July 1, 2006 suggesting that the information about the grant submission that I received
     was accurate. Additionally the funds from said grant were not received until November 2007 just prior to
     receiving correspondence from the Department of Justice that they would be auditing the 2 years of grants
    that were received . r did not see th is award since it went to CorePhilly and                      until much
    later. It was then that I learned that there was only $70,000 allocated for the consu~ant.

    Finally, the questioned overpayment to our statistics analyst is also in dispute.               firm was paid
    $100Jhr. $43.75 over the allowalle rate; such that auditors question $36,781               i         the
    allowable rate. If one attributed the entire payment to one individual , then the payment would be accurately
    described as an overpayment. However,                   both hired and worked with a team of consultants
    who managed our client needs during the course of the grant, and as such, we believe that the payment
    was both justified and allowable. Moreover, our Executive Director had the opportunity to meet two
    individuals that were either employees                                      or somehow engaged by him
    during the term of the grant, which                                                were ~overpayments" or
    actually justified.



    Recommendation #4: We re0Jmmend that OJP remedy $300,595 in unsupported expenditures.

    Management Response: We do not agree with this recommendation. Any instance of time away from a
    full-time schedule are well documented through our leave request forms, and communicated to our payroll
    provided as needed in a-der to ensure that proper vacation and medical leave time away from the office are
    accounted for. These forms are digitally preserved and ardlived as well, and in light of the physical size of
    our office , it would be imprudent of management to incur an offsite storage charge to retain years of
                                                          [21




                                                       - 24 -
 




    timesheets, which can be preserved with integrity through digital means. Management believes that its
    procedures concerning time-sheets and deviations from an eight-hour work day conform to the obligations
    under OMS Circular A-122, "Cost Principles for Non-Profit Organizations," August 31, 2005, which states
    that charges to awards for salaries and wages will be based on documented payrolls approved by a
    responsible official of the organization that reflect the distribution of activity of each employee whose
    compensation is charged to awards. Again, in an effort to avoid unnecessary printing costs, alilimesheets
    were directed to, reviev.ed and approved by the Executive Director on a weekly basis during each and
    every week of the two grant periods at issue. As such, these timesheets, while closely scrutinized 'Here not
    physically signed by Management. We are concerned that the report questions pa yroll in its entirety as
    measured by criteria only made aware to Management during the audit team field visit rather than in the
    Grantee Handbook or at any time during the term of the grant.

    Management concurs thaI internal control should improve over payroll by evidencing employee preparation
    and supervisory review. In addition, the timesheet can be improved by identifying program versus
    administration costs. In FY2012 , EAA has implemented improvements to the weekly timesheet form which
    does now adequately document arrival and departure time, incorporates a digital signature to affirm the
    Executive Director's approval, and also indicates which particular funding source supports the payroll cost
    associated with each timesheet. However, as Management has already indicated, during the audit period all
    employees of EAA, full-time salaried employees wi10 worke d a 40-hour workwee k during the entire term of
    each grant period, devoted their time administering the scholarship program that was the sole focus of the
    grant. Funding was charged to grants based on DOJ- approved budgets.

    All payroll expenditures are supported by the fact that the Executive Director approves the payroll run with
    the bookkeeper for each payroll cycle, including a review to ensure that all requests for vaca tion and
    medical leave are accurately accrued and reported in accordance with the vacation and sick leave policies
    and procedures enunciated in EAA's Employee Policy and Procedures Manual. Management engages in
    this comprehensive timesheet and payroll review prior to the issuance of all payroll checks. VVhile the
    timesheets submitted and preserved during the grant periods do not reflect any physical signatures to
    support Management approval, the fact that Management receives, reviews , and physically places each
    digital timesheet into a digital file associated with each employees human resource records is not an
    insignificant one. EAA's payroll expenditures are quite adequately supported by its' program
    accomplishments, and the respective roles and responsibilities of personnel who together administer
    multimillion dollar scholarship funds to nearly 2000 students on an annual basis. The audit team has
    scrutinized this work and found no fault with our administration of such awards.

    Given that the questioned a mount constitutes almost the entirety of the remaining grant dollars attributed to
    the grants beyond the $1.8 million scholarship dollar awards, Management is compelled to highlight that the
    guidance provided by NASA was misleading at best. Had the guidance been clearly communicated,
    extraordinary measures would have been pursued to successfully obtain and preserve timesheets with the
    level of detail sought by the auditors.



    Recommendation #5: We recommend that OJP remedy $3, 784 in unallowable expenditures.

    Management Response: We do not agree with this recommendation .. $3 ,784 in unallowable costs,
    consisting of (~ $2,790 in sales taxes, (i~ $936 for temp labor, lodging, office supplies, videography,
    photography, and (iii) a $58 credit card late fee . Despite the fact that sales taxes should not have been
    charged, in each instance we were informed that the item in question was not subject to waiver for any
    purchaser, regardless of tax-exempt treatment. From our perspective, each of these costs was a justifiable
    cost



    Recommendation #8: We recommend that OJP remedy $48, 339 in unsupported expenditures.

                                                         [3]




                                                      - 25 -
 




    Management Respon se: We do not agree with this recommendation . EM was unable to pro vide
    documentation of $48,339 in expenditures, consisting of (i) $42,661 in supplies, (ii) $3,613 in labor, (i i~
    $1 ,855 in meals, and (iv) $210 in storage . VVhile the specific receipts were not pro vided for every
    questioned expenditure , the majority of these questioned costs occurred in 2005, and 'lVere archived in a
    storage unit we were forced to store our financial records as we sought to downsize our office size and
    budget. There is nothing in the pattern of the rece ipts that were pro vided , or for those not provided for that
    matter, wh ich would indicate that we did not incur such expenses outside of the confines of the authorized
    budget.



    Recommendation #7: We recommend that OJP ensure that EAA requests grant funds based on immediate
    disbursement/reimbursement of actual grant expenditures.

    Management Response: We agree with this recommendation.



    Recommendation #8: We recommend that OJP ensure that EAA implements and adheres to procedures
    that will resuff in the timely submission of Federal Financial Reports.

    Management Response: We agree in part, and disagree in part with this recommendation. Although EAA
    attempted to submit timely reports in all instances, the submission website at the time. did not alert reporting
    grantees to the fact that a report submission has not been "certified" at the time the grantee posts the data.
    Since 2007 , the technology has been refined and the process of uploading such reports is no longer as
    burdensome and subject to technical error as it once was. Additionally, as these were the first federal
    agency awards that EAA had rece ive subject to an A- 133 audit, we were not familiar with the intricacies of
    compliance with reporting requirements. This assertion is supported by the fact that, contrary to the audit
    team's find ings, upon the close of the 2007 grant period , OOJ's records did not reflect that many of EM's
    previously filed FFR Cash Transaction Reports had been accepted, despite the fact that EM had timely
    posted the required reports , and accessed all of the grant funds.

    EAA will continue its efforts to work with OOJ to ensure that all necessary reports are obtained.
    Management wi ll continue to improve procedures to determine if any modifications would yield a more
    timely and effective treatment. EM has developed a monitoring system for a complete listing of grant
    awards and associated reporting deadlines, including those dramown th resholds pertaining to obtaining
    single audit reports. Management is corrmitted to continuing to bolster the full implementation of these
    processes to address these concerns in an integrated and consistent manner.



    Recommendation #9: We recommend that OJP ensure that EAA implements procedures to ensure that
    expenses reported on future Federal Financial Reports are based on actual expenditures for the reporting
    period.

    Management Respon se: We agree with th is recommendation .

    Recommendation #10: We recommend that OJP ensure that EAA implements and adheres to procedures
    that will resuff in submission of supported progress reports in a timely fashion.

    Management Respon se: we agree with th is recommendation .

    Recommendation #11: We recommend that OJP ensure that EAA implements and adheres to procedures
    to track expenditures by budget categories and to monitor budget versus actual spending on a consistent
    and ongoing basis to ensure EAA spends grant funds according to the defined budget categories.


                                                           [41




                                                        - 26 -
 




    Managem ent Respon se: We agree with this recommendation . EAA has provided an FY2011 copy of our
    Internal Controls Manual to DIG staff. Since that time, EAA has implemented additional controls, which
    include submitting requests for proposals to engage a financial service provider well versed with federal
    regulations to, among other duties, assist us with ongoing and future federal agency contract compliance
    matters.

    Since FY2009, EAA has also established a performance improvement plan to ensure that appropriate
    financial and program staffing and other resources are directed at financial management and reporting
    functions and continues to improve processes and procedures to promote better financial analysis,
    transaction entries and reconciliations are performed . Specifically, actions have been implemented to
    improve internal controls over the revenue process to ensure that the transactions are promptly and
    properly recorded for timely and reliable financial reporting. EAA is committed to improving its contro ls over
    revenue, and will continue to improve financial management and the grant monitoring processes subject to
    the requirements of the Single Audit Act Amendments of 1996 as we grow.

    Upon ca reful consideration of the significant corrective action progress, procedures, and internal controls
    that have been implemented thus far, EAA continues to believe that the efforts to address the deficiencies in
    cont rols related to EAA's administration of federal grant funds are substantially complete and provide
    reliable information. This position is based on the results of extensive internal control testing .....tlich
    revealed that controls are in place and operating effectively; therefore, there is, and has been, no adverse
    impact on the current financial internal control environment. We believe that there is a high degree of
    accuracy in the general ledgers submitted to OIG staff, that the accounting and asset management
    resource systems are reliable, and all monies are being properly and timely aC(;ounted for.



    Recommendation #12: We recommend that OJP remedy $46, 348 in costs that exceeded the 10 percent
    budget rule.

    Managem ent Respon se: We do not agree with this recommendation.

    Recommendation #13: We recommend that OJP ensure that EM implemenrs procedures to properly
    monitor contractors.

    Managem ent Respon se: We agree with this recommendation .

    Recommendation #14: We recommend that OJP remedy the $790, 594 in contractor payments for so/e­
    sourced contracts that were not approved by OJP to be procured non-competitively.

    Managem ent Respon se: We vigorously reject this recommendation due to the fact that the $790,594 in
    contractor payments for sole-source contracts was, in fact approved by OJP because they were included in
    the line-item budget initially submitted with EAA's original application. and subsequently approved without
    question by OJP .. In the initial proposal to support the project, the Philadelphia Education Fund and
    XAP.com were identified as the vendors with ......nom the Executive Director had engaged. Prior to the start
    of the contract , the Executive Director decided to engage Solutions for Progress as the technology
    resource . At no point did EM ever received a request to provide justification for awarding sole -source
    contracts to either vendor included in the original proposal prior to the approval of the award. Hence, it did
    not occur to the ED to notify the OOJ representative that the vendor to develop the electronic application
    was changed. As such wtth the approval of the contractual amounts in each award as requested .,.,;thou!
    any requests for further documentation, EAA representa tivess did not know that additional information
    needed to be submitted.

    More specifically, EAA paid two contractors $790,594. one to administer scholarships and one to track
    students after they received scholarships; but EAA did not monitor their financial management, procedures
    for administering the contract, adherence to the grant, or key internal controls. Rather, we received

                                                          [51




                                                      - 27 -
 




    progress reports, annual reports , a copy of the payment arrangements under v.tJich they had been
    contracted, and paid the invoices per the contract terms.

    Additionally although one of the sole-source contractor's compensation was paid a total in excess of
    $100,000 within the two grant years, she did not exceed t he $100,000 ceiling in either year of the grant.
    was also unaware of how many employees she may have engaged on this project, but given that the
    contractor is a limited liability company in good standing in Pennsylvania , we had no reason 10 believe that
    at any time less than tv.u employees actually provided the services under the agreement, sufficient
    justification for their payment.

    During FY 2012, EAA has continued to improve its information technology controls including policies and
    guidance concerning reporting compliance, and will continue to enhance application and general controls
    over reporting management going forward. We are constantly striving to il1l>lement improvements and
    strengthen the related administrative aspects of our oversight of programs, whether funded by federal, state
    or private dollars, and will continue to review all aspects of the reporting process for refinement, as
    appropriate.

    In closing, corrective action plans have been established for each of these findings where warranted by
    EAA, which will be closely monitored and tracked through completion. EAA is corrmitted to improving these
    and all other elements of financial management, and we thank you for the opportunity to provide these
    responses to the audit report.




    Respectfully submitted,




    Karen E. Nicholas, M.Ed.
    President & Chief Executive Officer
    Educational Advancement Alliance, Inc.




                                                          [61



                                                                                                                     
 



                                                      - 28 -
                                                                                                              APPENDIX IV 

 

             OFFICE OF JUSTICE PROGRAMS 

         RESPONSE TO THE DRAFT AUDIT REPORT 


                                                                U.S. Department of Justke

                                                                Ofjice ofJustice Programs

                                                               Office   f)f Audit, Assessment, and Management


                                                               W<llhl~",.t   D.C 10531


       J~.N   28 2013



    MEMORANDUM TO:                     Thomas O. Puerzcr
                                       Regional Audit Manager
                                       Philadelphia Regional Audit Office
                                       Ollice ortbe insp«:tor General

    FROM:                               M,"re<o A.    H'""''''4 & (7,riJ1.. . .
                                      . Director                 ( /         .~                 ~
    SUBJECT:                           Response to the DraLudit Report, Audit ofthe Office of Juslice
                                       Programs GranT Administered by Ihe Educational AdWlncemenl
                                       Alliance. Inc. , Philadelphia. Pennsylvania

    This memorandum is in response to your correspondence, dated November 28, 2012,
    tran~mitting the subject draft audit report for Educational Advancement Alliance, Inc. (EAA).
    We consider the subject report resolved and request WTitlen acceptance of Ihis action from your
    ollice.

    The draft audit report contains 14 recommendations and $ 1,258 ..
                                                                    162\ in questioned costs.
    The following is the Office of Justice Programs' (OJP) analysis of the draft audit report
    recommendations. For case of review, the recommendati on~ are restated in bold and are
    followed by our respollSc.

    1. We recommcnd that OJP e nsures that EM strcngthcus its internal cont rols over grant
       funds.

        OJP agrees with the recommendation. We will coordinate with EAA to obtain a copy of
        policies and procedures implemented to strengthen its intenml controls over l;ederal grant
        funds.




    I Total questioned COS\S figure excludes $346 ,943 in duplicate questioned COStS that were questioned as both
      unallowable and un~upported .




                                                         - 29 -
 




    2. We recommclld that OJP rcmcdy thc $78,269 ill ullallowable employce sala ry.

       OJP agrees with the recomme ndation. We will coordinate with EAA to remedy the $78,269
       in questioned employee salary costs. If adequate documentation cannot be provided, we will
       request that fAA return the funds to the U.s. Department of Justice (001), adjust their
       accounting records to remove the costs, and submit a revised fi nal Federal Financial Report
       (FFR) for grant number 2005-JG-FX-0259.

    3. We recommend that OJP rem edy the $337,376 in unallowable consultant expenditures,
       which includes S262,220 in unlluthorized costs, and $38,375 for the anthorized , but
       sole-sourced, Event Plllllller. The amount also includes costs totaling $124,470
       (S I06,970 + 17,500) for two consultants who were unauthorized and unal10wabl y hired
       without competitiv e bidding, and one consultant paid over $450 Iler day ($36,781).

       OlP agrees with the recommendation. Wc will coordinate with EAA to remedy the $337,376
       in questioned consultant expenses. If adequate documentation cannot be provided, we will
       request that EAA return the funds to the 001, adjust thei r accounting records to remove the
       costs, and submit a revised final FFR for grant number 2005-JG-FX-0259.

    4. We recommend that OJP remedy the $300,595 in uns upported consultant expenditures,

       Ol P agrees with the recommendation. We will coordinate with EAA to remedy the $300,595
       in unsupported consultant expenditures. If adeq uate documentation cannot be provided, we
       will request that BAA return the funds to the 001, adj ust their accounti ng records to remove
       the costs, and submit a revised tinal FFR for grant number 2005·JG-FX-0259.

    5. We reeolillnelld th at OJP remedy the $3,784 in uoaUowable expenditures.

       OlP agrees with the recommendation. We wi ll coordinate with EAA to remedy the $3,784 in
       unallowable expenditures. If adequate documentation cannot be provided, we will request
       that EAA return the funds to the 0 01, adjust their accounting records to remove the costs,
       and submit a revised final FFR for grant number 2005-JG-FX-0259.

    6. We recommend that OJP remedy the $48,339 in unsupported expenditures.

       OJP agrees with the recommendation. We will coordi nate with EAA to remedy the $48,339
       in unsupported expenditures. If adequate documentation cannot be provided, we will request
       that EAA return the funds to the 001, adjust their accounting records to remove the costs,
       and submit a revised final FFR for grant number 2005-JG-FX-0259.




                                                    2




                                                - 30 -
 




    7. We recommcnd tha t OJP elUlurcs that EAA requests gran t fund s based on immediate
       disbursemcntireirobunement of actual grant tX()(, nditurcs.

       OJP agrees with the recommendation. We will coordinate wi th EAA to obtain a copy of
       policies and procedures implemented to ensure that requests for Federal grant funds are
       based on immediate disbursement requirements, for actual grant-related expenditures.

    8. We recommend that OJP ensurcs tha t ~AA implements, and adheres to, procedures
       that will res ult in t he timely submission of FFRs.

       OJ P agrees with the recommendation. We will coordinate with EAA to obtain a copy of
       policies and procedures implemented to ensure the timely submission of FFRs.

    9. We recomme nd that OJP ensures that EAA implements procedures to ensu re that
       expenses reported on futu re FFRs are based on aetuu l expenditu res (or the reporting
       period,

       OJP agrees with the re«l mmendation. We will coordinate with EAA to obtain a copy of
       policies and proced ures implemented to ensure that costs reponed on future FFRs are based
       on &ettl.."Ii expenditu res for the reporting period.

    10. We recom mend that OJP ensures that ~AA implements, and adheres 10, procedures
        that will result in the s ubmission of SUPIIortcd progress reports in a timely fas hion,

       QJP agrees with the recommendation. We will coordinate with EAA to obtain a copy of
       policies and procedures implemented to ensure the submission of supponed progress repons
       in 8 timely fashion.

    11, We reco mmend thnl OJP ens ures that EAA implements, and adheres to, procedure! to
        track expenditu res by budget categories, and to monitor budget vers us actual spending
        on a consistent and ongoing basis, 10 ensure EAA spends grant funds according to the
        defin ed budget categories.

       OJP agrees with the recommendation. We will coordinate with EAA to obtain a copy of
       policies and procedures implemented to track expenditures by budget categories, and 10
       monitor budget versus actual spending on a consistent and ongoing basis, to ensure EAA
       spends grant funds according to the defined budget categories.




                                                   3




                                                - 31 -
 




    12. We r ecom mend th at OJP r emedy th e $46,348 in costs thatel:ceed cd th e 10 Ilerccnt
        budge t rule.

          OJp agrees with the recommendation. We will coordinate with EAA to remedy the $46.348
          in questioned costs. re lated to budget transfers in excess of 10 percent of the total award
          amount. If adequate documentation cannot be provided, we will request that EAA return the
          fwlds to the DOl, adjust their accounting records to remove the costs, and submil a revised
          final FFR for grant numbe r 200S-1G-FX-0259.

    13. We recommend th at O.JP ensures that EAA implemcnts procedures 10 prop erly
        mon itor co nt rac to rs.

          OJP IlgreeS with the recommendation. We will coordinate with EAA to obtain a copy of
          policics and procedures implemented to prope rl y monito r contractors.

    14. We r ecom mend tha t OJP remcdy the S790,594 in co ntractor pay m ents for sole-so urced
        cOlll racts thl&t were not ap proved by OJP to be proc ured non-competit ively.

          OJP agrees with the recommendation. We will coordinate wilh EAA to remedy the $790,594
          in questioned contractor payment costs, related to sole-sourced contracts thai were not
          authorized by OlP.

    We appreciatc Ihe opponunity 10 review and comment on the draft audit report. If you have any
    questions or require additional infonnation, please contact Jeffery A. Haley, Deputy Director,
    Audit and Review Division, on (202) 616·2936.

    cc:       Jeffery A. Haley
              Deputy Director , Audit and Review Division
              Office of Audit, Assessment, and Management

              Meloclcc Hanes
              Acting Administrator
              Office of Juvcnile Justice and Delinquency Prevention

              Marilyn Roberts
              Deputy Administrator
              Office of Juvenile Justice and Delinquency Prevention

              Louise Duhamel, Ph.D.
              ACling AssisUint Director, Aud it Liaison Group
              Internal Review and Evaluation Office
              Justice Managemellt Division

              OJP Executive Secretariat
              Control Numbcr20121818


                                                      4




 



                                                   - 32 -
                                                                  APPENDIX V 

 

                OFFICE OF THE INSPECTOR GENERAL 

               ANALYSIS AND SUMMARY OF ACTIONS

                 NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the Office of Justice
Programs (OJP) and Educational Advancement Alliance, Inc. (EAA). EAA’s
response is incorporated in Appendix III of this final report, and OJP’s
response is included as Appendix IV. The following provides the OIG
analysis of the responses and summary of actions necessary to close the
report.

Analysis of EAA’s Response

      In response to our audit report, EAA stated that it was pleased that we
found no evidence existed to contradict that it fulfilled the grant objectives of
awarding as many scholarships to qualified youth as possible. However, the
objective of the OJP grant we audited was to fund CORE’s programs
designed to increase the access and retention of at-risk students to higher
education rather than for actual scholarship awards. The increases were to
be achieved by providing direct student counseling and to improve the
systems for addressing access and retention of at-risk students. As a result,
we did not audit or comment on the actual awarding of scholarships by
CORE since those funds came from other sources.

      The EAA response also stated that our report alleges that certain sole-
sourced contracts were entered into at amounts, and for purposes not
authorized by the grant. EAA also stated in its response that supporting
documents were submitted to respond to the audit report and its responses
to the recommendations were to provide a more nuanced accounting of the
circumstances under which each contract was entered. However, EAA did
not attach any additional documentation to its narrative response shown in
Appendix III of this report. We address each recommendation below.

Summary of Actions Necessary to Close the Report

    1. Resolved. OJP agreed with our recommendation to ensure EAA
       strengthens its controls over grant funds. OJP stated in its response
       that it will coordinate with EAA to obtain a copy of the policies and
       procedures implemented to strengthen its internal controls over Federal
       grant funds.

      In its response, EAA said that this concern regarding historical
      differences does not imply that current control deficiencies exist. Our



                                     - 33 -
 


      audit was conducted to determine the controls that were exercised over
      the $1.87 million in federal funds that were administered by EAA on
      behalf of CORE. The processes and controls that we audited were those
      that were in place to safeguard the CORE funding, which was the focus
      of our audit. Further, as we report in our audit, EAA had not
      implemented the controls that EAA officials stated it had in place to
      safeguard those funds. We were not provided with any additional
      procedures that would have prevented the deficiencies we noted in our
      audit. As a result, we believe it is necessary for EAA to improve its
      controls to ensure future funds are properly safeguarded.

      This recommendation can be closed when we receive evidence that the
      proper controls are in place to safeguard grant funds whether received
      directly by EAA for its use or on behalf of another organization, such as
      CORE.

    2. Resolved. OJP agreed with our recommendation to remedy the
       $78,269 in unallowable employee salary. OJP stated in its response that
       it will coordinate with EAA to remedy the $78,269 in questioned
       employee salary cost. OJP went on to state that if adequate support
       cannot be provided, it will request that EAA return the funds to DOJ,
       adjust their accounting records to remove the costs, and submit a
       revised final FFR for the grant.

      In its response, EAA disagreed with our recommendation. Specifically,
      EAA stated that although the grant provided for two Retention Officers
      at $40,000 per year, the decision was made that one individual could
      perform the work. EAA’s position is that the total salary cost expended
      was within the budgeted amount and allowable. However, as we note in
      our report, EAA is required to submit a request for significant changes in
      project scope, including changes in key personnel. EAA did not submit
      and receive a budget change for the excess salary paid to the retention
      officer, and therefore that amount is unallowable.

      This recommendation can be closed when we receive documentation
      that OJP has remedied the $78,269 in unallowable salary.

    3. Resolved. OJP agreed with our recommendation to remedy $337,376
       in unallowable consultant expenditures, which includes $262,220 in
       unauthorized costs and $38,375 for the authorized but sole-sourced
       Event Planner. The amount also includes costs totaling $124,470
       ($106,970 + $17,500) for two consultants who were unauthorized and
       unallowably hired without competitive bidding, and one consultant was
       paid over $450 per day ($36,781). OJP stated that it will coordinate


                                      - 34 -
 


      with EAA to remedy the $337,376 in questioned consultant expenses
      and if adequate documentation cannot be provided, it will request EAA
      return the funds to DOJ, adjust its accounting records to remove the
      costs, and submit a revised final FFR for the grant.

      In its response, EAA partially agreed and partially disagreed with this
      recommendation, however the response does not make clear what
      aspects of the recommendation are agreed with and where there is
      disagreement. Instead, the response discussed the hiring of a
      consultant and the amount to be paid to that consultant. EAA’s
      response further stated the consultant’s salary was to come from a
      grant from the Commonwealth of Pennsylvania, and that these funds
      were not received until November 2007 and went directly to CORE. The
      EAA response indicated that the grant award was attached, but we were
      not provided with the attachment. In addition, nothing in the EAA
      response disputed the fact that his salary was paid for by the OJP grant
      without proper authorization.

      The EAA response also questioned the overpayment to the statistics
      analyst consultant because it states that a team of analysts was
      employed through the consultant’s contract. We agree that a statistics
      analyst was included in the approved budget; however, the amount that
      the consultant was paid exceeded the amount allowed in the OJP
      approved budget. Additionally, nowhere in the grant application or
      approved budget was there any discussion of a statistics analyst team.
      As a result, these expenditures remain unallowable.

      Finally, the EAA response did not address or refute the other
      unallowable expenditures associated with this recommendation,
      including the sole-sourced Event Planner and the two consultants who
      were not authorized in the approved budget and hired non-
      competitively.

      This recommendation can be closed when we receive documentation
      that OJP has remedied the $337,376 in unallowable consultant
      expenditures.

    4. Resolved. OJP agreed with our recommendation to remedy the
       $300,595 in unsupported consultant expenditures. OJP stated that it
       will coordinate with EAA to remedy the $300,595 in unsupported
       consultant expenditures and if adequate documentation cannot be
       provided, it will have EAA return the funds to DOJ, adjust their
       accounting records to remove the costs, and submit a revised final FFR
       for the grant.


                                     - 35 -
 



      EAA disagreed with this recommendation in responding to our report.
      EAA stated in its response that any instance away from a full-time
      schedule is documented through its leave system and communicated to
      payroll. However, the individuals who represented this $300,595 in
      unsupported expenditures were consultants not employees of EAA. The
      issue with these payments is not that time cards were not prepared, but
      rather that the requisite time and effort reports for these payments
      were not available or provided. In fact, we stated that the personnel
      and fringe benefits paid with grant funds were allowable and properly
      supported, with the exception of the salary mentioned in
      recommendation 2.

      EAA also stated in its response that the audit team has scrutinized the
      work of the staff to administer scholarship awards and found no fault
      with this work. Our audit did not review the administration of the
      scholarship funds as these funds were provided by other sources and
      not the subject of this audit. Our audit concentrated on the CORE
      programs that were designed to increase the access and retention of at-
      risk students to higher education. In addition, the response makes
      reference to issues with guidance received from another agency which
      again has no bearing on the subject DOJ funds and their use.

      This recommendation can be closed when we receive documentation
      that OJP has remedied the $300,595 in unsupported expenditures.

    5. Resolved. OJP agreed with our recommendation to remedy $3,784 in
       unallowable expenditures. OJP stated that it will coordinate with EAA to
       remedy the $3,784 in unallowable expenditures. OJP’s response also
       stated that if adequate documentation cannot be provided, it will
       request that EAA return the funds to DOJ, adjust its accounting records
       to remove the costs, and submit a revised final FFR for the grant.

      EAA stated that it disagreed with this recommendation. EAA stated that
      the sales taxes should not have been charged to the grant, however it
      maintained that the expenditures were justifiable because EAA was told
      that the items in question were not subject to a waiver for any
      purchaser, regardless of tax-exempt treatment. As our report states,
      these costs were discussed with EAA officials who agreed that the costs
      should not have been charged to the grant because the necessary
      documents needed for tax exempt purchases were available; however,
      the documents were not utilized. In addition, EAA provided no
      additional documentation supporting that the expenditures were
      allowable.


                                      - 36 -
 


       This recommendation can be closed when we receive documentation
       that OJP has remedied the $3,784 in unallowable expenditures.

    6. Resolved. OJP agreed with our recommendation to remedy $48,339 in
       unsupported expenditures. OJP stated that it will coordinate with EAA
       to remedy the $48,339 in unsupported expenditures. OJP also stated
       that if adequate documentation cannot be provided, it will request that
       EAA return the funds to DOJ, adjust its accounting records to remove
       the costs, and submit a revised final FFR for the grant.

       In its response, EAA disagreed with this recommendation. EAA stated
       that while the specific receipts for every questioned expenditure were
       not provided, the majority of these questioned costs occurred in 2005
       and were archived. The OJP Financial Guide states that records shall be
       retained by the organization for at least 3 years following the
       programmatic or fiscal closure of the grant. The guide also states that if
       any litigation, claim, negotiation, audit, or other action involving the
       records have started before the expiration of the 3-year period, the
       records must be retained until completion of the action and resolution of
       all issues which arise from it or until the end of the regular 3-year
       period, whichever is later. Neither of these situations had occurred at
       the time of our audit’s fieldwork, and as a result, EAA was responsible
       for providing support for those transactions we selected for verification.
       None of the receipts we question as unsupported were provided during
       our audit, regardless of whether the receipts had been archived or not.

       This recommendation can be closed when we receive documentation
       that OJP has remedied the $48,339 in unsupported expenditures.


    7. Resolved. OJP agreed with our recommendation to ensure that EAA
       requests grant funds based on immediate disbursement/reimbursement
       of actual grant expenditures. OJP stated that it will coordinate to obtain
       a copy of policies and procedure implemented to ensure that requests
       for Federal grant funds are based on immediate disbursement
       requirements, for actual grant-related expenditures.

       In its response, EAA also agreed with the recommendation.

       This recommendation can be closed when we receive documentation
       demonstrating that EAA has procedures in place to ensure that grant
       funds are requested for the immediate disbursement /reimbursement of
       actual grant expenditures.



                                       - 37 -
 


    8. Resolved. OJP agreed with our recommendation to ensure that EAA
       implements and adheres to procedures that will result in the timely
       submission of Federal Financial Reports (FFRs). OJP stated that it will
       coordinate with EAA to obtain a copy of policies and procedures
       implemented to ensure the timely submission of FFRs.

       In its response, EAA agreed in part and disagreed in part with this
       recommendation. EAA stated that although it attempted to submit
       timely reports in all instances, the submission website at the time did
       not alert reporting grantees that a report submission had not been
       “certified” at the time the grantee posted the data. In previous
       discussions with EAA personnel during our audit’s fieldwork, EAA could
       not explain why five of the eight reports were late. Additionally, EAA’s
       response does not offer an explanation as to why three of the reports
       were submitted on time given the problems noted with the website.
       Also, the lateness of the reports varied from 11 to 44 days which we
       believe indicates that the cause was in fact late submission.

       In EAA’s response, it states it has developed a monitoring system for
       reporting deadlines. We were not provided with an overview of this
       system and we did not evaluate EAA’s timeliness for reporting for any
       grant other than the 2005-JG-FX-0259 grant.

       This recommendation can be closed when we receive documentation
       that EAA has procedures in place to ensure the timely submission of
       FFRs.

    9. Resolved. OJP agreed with our recommendation to ensure that EAA
       implements procedures to ensure that expenses reported on future FFRs
       are based on actual expenditures for the reporting period. OJP stated
       that it will coordinate with EAA to obtain a copy of the policies and
       procedures to ensure the costs reported on future FFRs are based on
       actual expenditures for the reporting period.

       EAA agreed with this recommendation in its response.

       This recommendation can be closed when we receive documentation
       demonstrating that EAA has procedures in place to ensure that FFRs are
       based on actual expenditures for the reporting period.

    10.	 Resolved. OJP agreed with our recommendation that EAA implement
       and adhere to procedures that will result in submission of supported
       progress reports in a timely fashion. OJP stated that it will coordinate



                                      - 38 -
 


      with EAA to obtain a copy of the policies and procedures implemented to
      ensure the submission of supported progress reports in a timely fashion.

      In its response, EAA agreed with this recommendation.

      This recommendation can be closed when we receive documentation
      that EAA has procedures in place to ensure that supported progress
      reports are submitted in a timely fashion.

    11.	 Resolved. OJP agreed with our recommendation that EAA
       implements and adheres to procedures to track expenditures by budget
       categories and to monitor budget versus actual spending on a
       consistent and ongoing basis to ensure EAA spends grant funds
       according to the defined budget categories. OJP stated that it will
       obtain a copy of policies and procedures implemented to track
       expenditures to budget categories and to monitor budget versus actual
       spending on a consistent and ongoing basis, to ensure EAA spends
       grant funds according to the defined budget categories.

       EAA agreed with this recommendation yet provided a lengthy discussion
       of actions taken since FY 2009 to improve their operations. However, it
       continues to maintain “..that controls are in place and operating
       effectively; therefore there is, and has been, no adverse impact on the
       current financial internal control environment. We believe that there is
       a high degree of accuracy in the general ledgers provided to the OIG
       staff, that the accounting and asset management resource systems are
       reliable, and all monies are being properly and timely accounted for.”
       We disagree with this response given the significant internal control
       issues and monetary findings discussed in this audit report.

       This recommendation can be closed when we receive documentation
       demonstrating that EAA has policies and procedures in place to track
       expenditures by budget categories and to monitor budget versus actual
       spending on a consistent and ongoing basis and that these procedures
       are actually being followed.

    12.	 Resolved. OJP agreed with our recommendation to remedy $46,348
       in costs that exceeded the 10 percent budget rule. OJP stated that it
       will coordinate with EAA to remedy the $46,348 in questioned costs,
       related to budget transfers in excess of 10 percent of the total award
       amount. OJP also stated that if adequate documentation cannot be
       provided, it will request that EAA return the funds to DOJ, adjust its
       accounting records to remove the costs, and submit a revised final FFR
       for the grant.


                                     - 39 -
 



       EAA disagreed with the recommendation in its response but provided no
       rationale or documentation to support its disagreement.

       This recommendation can be closed when we receive documentation
       that OJP has remedied the $46,348 in costs that exceeded the 10
       percent budget rule.

    13.	 Resolved. OJP agreed with our recommendation to ensure that EAA
       implements procedures to properly monitor contractors. OJP stated
       that it will coordinate with EAA to obtain a copy of policies and
       procedures implemented to properly monitor contractors.

       In its response, EAA agreed with this recommendation.

       This recommendation can be closed when we receive documentation
       demonstrating that EAA has implemented policies and procedures to
       properly monitor contractors.

    14.	 Resolved. OJP agreed with our recommendation to remedy the
       $790,594 in contractor payments for sole-sourced contracts that were
       not approved by OJP to be procured non-competitively. OJP stated that
       it will coordinate with EAA to remedy the $790,594 in questioned
       contractor payment costs.

       In its response, EAA stated that it vigorously rejected this
       recommendation due to the fact that the $790,594 in contractor
       payments for sole-source contracts was, in fact, approved by OJP
       because it was included in the line item budget initially submitted with
       EAA’s original application, and subsequently approved without question
       by OJP. However, we found that the only specific contractors identified
       in the initial application were Philadelphia Education Fund and XAP, but
       they were not identified as sole source. Additionally, the only
       contractor identified in the detailed budget that was approved by OJP
       was the Philadelphia Education Fund. Furthermore, nowhere in the
       budget or application documentation did EAA indicate that these were
       non-competitive contracts which very specifically require prior OJP
       approval per the OJP Financial Guide.

       This recommendation can be closed when we receive documentation
       that OJP remedied the $790,594 in questioned contractor payment
       costs. 




                                      - 40 -
